                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-16A                                  Office of Inspections                                        July 2014




                               Inspection of
                           Embassy La Paz, Bolivia




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.


                                            1
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                            1
Context                                                 3
Leadership                                              4
  First- and Second-Tour Generalists and Specialists    5
  Contact Database                                      5
Management Controls                                     7
Policy and Program Implementation                       8
  Outreach and Engagement with the Bolivian People      8
  Public Diplomacy                                     10
  Political and Economic Affairs                       13
  Grants Management and Oversight Shortcomings         15
  Consular Affairs                                     16
Resource Management                                    20
  Financial Management                                 20
  Human Resources Office                               23
  General Services Office                              24
  Facilities Management                                26
  Information Management                               28
Quality of Life                                        31
  Community Liaison Office                             31
  Health Unit                                          31
  Overseas Schools                                     31
List of Recommendations                                33
List of Informal Recommendations                       37
Principal Officials                                    39
Abbreviations                                          40




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
      Embassy La Paz lacked the strong, consistent leadership and the sustained attention from
       Washington that it needed to manage a complicated bilateral relationship and had a
       relatively inexperienced officer cadre and a locally employed staff emerging from a
       reduction in force.

      The embassy registered several impressive successes despite a drastic reduction in
       programs and work force in response to the Bolivian Government’s expulsion of the U.S.
       Agency for International Development and the Department of State’s decision to end all
       U.S. counternarcotics programs.

      The embassy needs a clearly defined mission strategy.

      The embassy does not have adequate mechanisms to achieve its linked goals of building a
       strong foundation for a strengthened bilateral relationship and advancing U.S. interests.
       Theme-based working groups would be ideal for enhancing cooperation among embassy
       offices.

      Public diplomacy has become a key missionwide focus. The public affairs section needs
       to shift resources from press to cultural affairs and fill an English-language program
       position.

      The management section has a number of potential management control vulnerabilities
       related to record keeping and funds control. It is still coping with 2013’s major reduction
       in force of locally employed staff and an almost 50-percent reduction in the embassy’s
       services budget.

      Political reporting and political/economic section outreach is good but requires better
       direction and organization.

      Consular section leadership needs to improve work flow, efficiency, and the warden
       system. The consular agency in Santa Cruz needs to relocate.


IMPORTANT NOTE: The classified annex includes supplemental narrative and
recommendations. Portions of context, leadership, resource management, Equal Employment
Opportunity, and quality of life in the annex should be read in conjunction with this report.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 6 and February 4, 2014, and in
La Paz, Bolivia, between March 5 and 20, 2014. Ambassador Gene Christy (team leader),
Thomas Allsbury, Laurent Charbonnet, Eric Chavera, Leo Hession, Tracey Keiter, Keith Powell,
                                              1
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Ashea Riley, Richard Sypher, Alexandra Vega, Roman Zawada, and Barbara Zigli conducted the
inspection.




                                      2
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        The 2005 election of Evo Morales as president of Bolivia marked a significant change in
the U.S.-Bolivia relationship. The Morales government styles itself as a leading critic of the
United States and consistently opposes U.S. initiatives regionally and worldwide. Bolivia
expelled the U.S. Ambassador in September 2008, and the Drug Enforcement Administration
and the Peace Corps suspended their operations shortly thereafter. Despite the 2011 signing of a
Framework Agreement to right the bilateral relationship and allow for the exchange of
ambassadors, the relationship deteriorated further in 2013 with the May expulsion of the U.S.
Agency for International Development (USAID) and the U.S. Government’s subsequent
cessation of all International Narcotics and Law Enforcement (INL) programs. The relationship
is unlikely to normalize soon.

        With a per capita gross domestic product of approximately $2,500 in 2012, Bolivia
remains a poor country. However, for the first time in its history, the Bolivian Government has
secure financing from gas exports, and the economy has been growing at a respectable rate. The
government is generally able to fund its top priorities without external assistance. Bolivia
continues to face serious problems of narcotics production and trafficking and is the world’s
third largest producer of cocaine and of other coca-derived drugs.

        Moving away from the previous focus on large counternarcotics and development
assistance programs, the embassy has shifted to an emphasis on cultural and academic exchanges
and public outreach while continuing to work with Bolivian Government institutions, wherever
possible. In particular, the embassy is increasing outreach to indigenous and other underserved
communities.

       On September 13, 2013, President Obama determined that most foreign assistance to
Bolivia would be restricted, effective October 1, 2013. At the same time, as a result of the
expulsion of USAID and termination of programs, the foreign assistance budget for Bolivia
declined by 82 percent, from more than $23 million in FY 2012 to just more than $5 million in
FY 2013, much of which was used to close out ongoing counternarcotics programs in an orderly
manner. As of January 2014, the embassy had a total staff of 310, slightly more than one-third of
2008 numbers.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Leadership
        The former chargé interacted with senior government officials more often and more
effectively than the hostile environment might have suggested. He expanded his personal
engagement with the local media. He negotiated an unexpected $2.4-million reimbursement of
value-added taxes. Also, he initiated development of an updated mission vision that called for
expanded outreach to the Bolivian people and greater focus on cultural programs and English-
language training.

        Despite these and other successes, nearly all American staff members told the OIG team
that they did not understand mission priorities or their part in achieving goals. The OIG team
frequently heard staff tell of instructions given one day only to have the former front office
forget or reverse them the next. Skepticism about public diplomacy programming one month
could be replaced by front office enthusiasm for a cultural project the next. Reporting officers,
already in a difficult environment for contact development and reporting, stated that the front
office did little to direct reporting or provide training and mentoring. Embassy staff members
told the OIG team they wanted clear and steady guidance from the front office but did not
receive it.

         The Bureau of Western Hemisphere Affairs (WHA) paid sporadic attention to embassy
operations. Visits from bureau representatives were rare, and the former chargé was not encouraged
to visit Washington for consultations as regularly as might be warranted for a chief of mission in
similar difficult circumstances. The complicated bilateral relationship, a relatively inexperienced
officer cadre, a locally employed staff emerging from a debilitating reduction in force, and a lack of
sustained attention from Washington all called for strong leadership that was not provided. Just
before the inspection, the Department of State (Department) recalled the chargé and the
political/economic section chief who served as acting DCM from August 2012 to September 2013
and took steps to mitigate some of the embassy’s leadership problems.

        Since 2008, WHA used a series of deputy chiefs of mission (DCM) as chargé d’affaires
and after July 2012 detailed section heads (first from the political/economic section, then from
public affairs, and just before the inspection from the management section) to serve as acting
DCM for extended periods. The Department also decided not to assign a permanent office
management specialist for the chief of mission, and the front office relied on office management
specialists from other sections for months at a time.

         The effects of these stopgap measures were threefold. First, they required officers to
serve as acting DCM for extended periods without appropriate training. Second, they took
seasoned leaders out of embassy sections, leaving those sections in the hands of usually
capable—but inexperienced—deputies. The deputies rose to the challenge, but they did not
receive adequate guidance or leadership from their former supervisors. Productivity and morale
suffered. Third, the extended service of office management specialists detailed to the front office
affected continuity and productivity in the offices of their original assignment. They could not
fulfill the expectations of both the front office and their “home” offices.

       Just before the inspection, WHA and the Bureau of Human Resources agreed that,
because a permanent ambassador is not likely in the foreseeable future, the Department would
                                               4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

assign a permanent chargé d’affaires and a permanent DCM in La Paz. During the inspection, the
Department advertised an immediate opening for a new DCM and was in the process of
assigning a full-time chargé to arrive as soon as possible. The OIG team supports these actions.

        Assigning office management specialists to support the new chargé and the new DCM is
also an urgent embassy need. The chargé’s and DCM’s office management specialist positions
have not both been filled at the same time in more than 5 years, which has been detrimental to
the embassy offices that provide temporary coverage for those vacant positions and has
complicated management of the front office.

Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should fill the vacant chief of mission and deputy chief of mission
office management specialist positions. (Action: WHA, in coordination with DGHR)

        The embassy formed a working group in December 2013 to update the mission’s
Integrated Country Strategy. At the time of the inspection, the draft Integrated Country Strategy
FYs 2014–2016 lacked only a chief of mission statement, which the current chargé was writing.
The OIG team discussed with embassy leadership changes that would focus the Integrated
Country Strategy document more clearly on the ways in which the embassy could achieve
concrete goals in the current political climate. A WHA-approved Integrated Country Strategy
will be a tool to build and disseminate a common understanding of the mission’s goals and the
role each individual plays in achieving them. Because the embassy lacks clear direction and
guidance, the updated Integrated Country Strategy cannot await the arrival of a permanent
chargé.

Recommendation 2: Embassy La Paz, in coordination with the Bureau of Western Hemisphere
Affairs, should finalize and promulgate to mission staff its Integrated Country Strategy FYs
2014–2016. (Action: Embassy La Paz, in coordination with WHA)

First- and Second-Tour Generalists and Specialists

        In October, on taking over as acting DCM, the public affairs officer followed the former
chargé’s instruction to revitalize the first-and second-tour (FAST) program with monthly events
that included a reception for all junior diplomats in La Paz. He met with each FAST generalist
and specialist individually to discuss their personal development and his new role as their
reviewing officer. The mission’s FAST employees have been energized by this attention to their
professional development.

Contact Database

        The embassy has no missionwide contact database. It has, instead, multiple and different
programs for contact management scattered throughout the mission. The protocol office alone
has three different programs, and embassy staff describes as disastrous previous efforts to
organize Fourth of July reception invitation lists. For example, one invitee received four
invitations to the 2013 festivities. The systems staff recently installed the Department-approved
Contact Management Database and is testing its use with front office contact data. After the
completion of successful testing, the systems staff will activate the database and conduct
                                                  5
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

missionwide training. The lack of a comprehensive system has resulted in duplication of effort,
the potential loss of contacts, and difficulties in organizing large events.

Recommendation 3: Embassy La Paz should implement a comprehensive plan and timeline for
a missionwide contact database, including staff training, database configuration, and the addition
of each office’s contacts. (Action: Embassy La Paz)




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Management Controls
         A number of the observations and recommendations in this inspection report discuss
management control vulnerabilities. The inspection team noted that many of these vulnerabilities
are attributable to a lack of oversight and poor record keeping over a period of several years.
Although the 2013 annual chief of mission statement of assurances identified no significant
management control deficiencies, many of the vulnerabilities discussed in this report would have
been apparent if embassy leadership had conducted a thorough review of management controls
prior to submitting the chief of mission statement. The embassy would benefit from a
comprehensive, office-by-office review of all activities having management control implications.
A number of resources, including suggestions in 14 STATE 029422, dated March 14, 2014, and
OIG functional questionnaires, are available to assist in making such evaluations.

Recommendation 4: Embassy La Paz should develop and implement a standard operating
procedure for reviewing management controls in each section and submitting relevant supporting
documentation to the chief of mission before preparing the annual statement of assurances.
(Action: Embassy La Paz)




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Outreach and Engagement with the Bolivian People

        The primary goal of the embassy’s updated Integrated Country Strategy is to “build a
strong foundation for a strengthened relationship and advancing U.S. interests.” The mission has,
and can develop further, programs, activities, and approaches to help it reach this goal, including
strategic implementation of a nascent modular community outreach program, increased
cooperation among sections, and revival of the embassy speakers program and a neglected
commercial promotion effort.

People-to-People Activities

        In brainstorming meetings during fall 2013, mission staff identified a new opportunity to
build on previous development efforts and reach Bolivians more directly than had been possible
for several years. The idea was a modular community outreach program that would focus
attention on a single Bolivian community and involve all country team elements. The program
includes a variety of components: friendly soccer matches between the embassy and local
community teams; social activities; presentations on travel and visas; book donations; and
identification of low-cost projects to rehabilitate public facilities. A key program objective is to
sustain contact through followup visits. At the time of the inspection, the embassy was in the
midst of its first community outreach program and planning the next. Embassy leaders told the
OIG team they hoped to select a new community each month and expand the program until they
exhausted available resources, which is not an appropriate way to achieve its goals.

       Informal Recommendation 1: Embassy La Paz should implement a strategy for its
       modular community outreach program that matches human and financial resources to its
       ambitions.

Coordination of Programs and Grants

        Embassy La Paz had a rigid separation between the political/economic and public affairs
sections until fall 2013. The embassy has a greater number of programs than is customary for a
mission of this size. The Office of the Under Secretary for Public Diplomacy and Public Affairs
funds extensive outreach and exchange opportunities. The political/economic section also
implements programs in human rights, trafficking in persons, and intellectual property rights
protection.

        In 2013, a political officer working on human rights and trafficking in persons programs
became the first from his section to rotate into the public affairs section for 3 months. In addition
to learning more about public diplomacy, the political officer and his public affairs colleagues
developed a greater appreciation of opportunities for collaboration and cooperation between the
two sections. During the inspection, a second political officer was concluding his 3-month
rotation.



                                         8
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         All political/economic officers with responsibilities for individual programs are serving
as program officers for the first time. A lesson learned from the rotation program to the public
affairs section is that public affairs can share valuable contacts and experiences in program
management, which, in turn, facilitates other sections’ program implementation and oversight.
The public affairs section also has resources, such as access to expert speakers from the United
States who might be able to complement other programs. The embassy currently has a limited
number of working groups.

         The experience derived from the political/economic officer rotation to the public affairs
section suggests that small working groups, consisting of U.S. direct-hire and locally employed
staff from both public affairs and the political/economic section and focused on important
themes, can penetrate the traditional barriers between the sections and increase their mutual
contributions to the mission’s top goal. The OIG team discussed with embassy leaders
establishing political/economic and public affairs working groups that focus on important themes
involving multiple programs and activities.

        The embassy has a weekly strategic communication meeting that includes most country
team members. The chargé chairs the meeting, and the acting DCM attends. These meetings are
primarily for information sharing, and they are not currently used for decisionmaking. Embassy
leaders require information about the status of programs and program implementation that they
do not always receive. Section heads and working group representatives could provide this
information more effectively than they do now. The existing strategic communications meeting
is an ideal forum for information exchange to inform embassy leaders and facilitate
decisionmaking. The OIG team discussed how embassy leaders could incorporate information
from theme-focused working groups into its strategic communications meeting.

Embassy Speakers Program

        Until January 2014, the public affairs section coordinated an active embassy speakers
program to respond to Bolivians’ interest in the United States. The coordinator dispatched staff
members in response to invitations to speak at binational centers and other organizations. FAST
officers were active participants. The formal speakers program lapsed at the end of 2013.

       The speakers program provided an opportunity to talk directly to Bolivians about the
United States and to develop officers’ oral communication skills, as required by the
Department’s professional competence and promotion precepts. During the program’s heyday,
the coordinator could fill only half the requests for speakers. Even after the program ended,
requests from Bolivians for speakers have continued to reach the embassy but are unmet.
Embassy section chiefs could help meet this need by including public outreach as an ongoing
responsibility in work requirements statements.

Recommendation 5: Embassy La Paz should revive its embassy speakers program. (Action:
Embassy La Paz)




                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

U.S. Export Promotion and Business Facilitation

         The embassy does not have a focused, missionwide effort to promote U.S. exports or to
assist U.S. businesses attempting to do business in Bolivia. Thus, it is out of step with the
President’s National Exports Initiative and instructions from the Secretary of State to
ambassadors and chiefs of mission (11 State 103467) that they should personally lead such
efforts.

        The front office and political/economic section officers are responsible for export
promotion and business facilitation activities because neither the Foreign Agricultural Service
nor the Foreign Commercial Service has offices in La Paz. Both agencies have attachés and
locally employed staff traveling intermittently to Bolivia from regional embassies.

        The Bolivian market is relatively small but has been growing rapidly. Economic officers
have undertaken worthwhile initiatives, including successful application in 2012 to the Bureau of
Economic and Business Affairs for $20,000 to support their export-promotion activities. That
funding allowed embassy officers to promote U.S. products and trade practices in a road show to
14 cities, at Bolivia’s largest trade fair, and in more than a dozen conferences and seminars. The
embassy applied for and received new export-promotion funding in 2014 and is now designing
additional activities to promote U.S. products and services.

       Despite individual officers’ efforts, embassy leadership has not given U.S. export
promotion consistent attention. Nor has it established and led a working group focused on U.S.
exports, as the Department instructed.

Recommendation 6: Embassy La Paz should develop a comprehensive missionwide strategy,
consistent with the National Export Initiative, to expand U.S. exports to Bolivia. (Action:
Embassy La Paz)

Public Diplomacy

        Given the contentious official bilateral relationship, public diplomacy has assumed out-
sized importance among mission activities. Fortunately, the public affairs section has a staff that
is experienced in running innovative and successful programs appropriate for the Bolivian
environment. With a few staffing adjustments, it would be capable of taking on an expanded role
in a missionwide public diplomacy effort.

        The difficult political environment has caused the section to place more emphasis on
nonsensitive cultural, educational, and public outreach programs than on traditional press work.
The embassy keeps a low public profile, issuing few press statements and receiving few official
visitors. However, the public affairs section’s staffing profile, with four full-time local staff
doing press work, still reflects the patterns of the past. Section management has not adjusted
staffing to provide additional resources for outreach programs.

Recommendation 7: Embassy La Paz should convert one of its information specialist positions
into a cultural specialist position. (Action: Embassy La Paz)

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Cultural and Educational Programs

       The section has targeted its cultural and exchange programs as topics of importance to
Bolivians. It has sponsored a series of cultural and exchange programs involving Native
Americans, a subject that is appealing to audiences in this majority-indigenous country. It has
competed successfully for Ambassador’s Fund for Cultural Preservation projects and publicized
them widely. The section has an extensive and popular book donation program, in which it
donates 200-book sets about twice a month to municipal libraries and rural schools and builds
other public diplomacy activities around the donation ceremonies. A full-time alumni
coordinator supports several active alumni associations across the country.

        Bolivian Government visa restrictions that limit stays to 3 months hamper academic
exchanges, such as Fulbright and English-language fellows. The section has responded by
focusing on shorter-term programs. In a country where only 5 percent of the population speaks
English, English-language programs hold great potential. The embassy has expanded its English-
language scholarship programs to cover more than 500 underserved Bolivian youth but has no
English-language specialist, so initiatives and followup are limited. The section created an
English-language specialist position in spring 2013 but was unable to fill the vacancy because of
the Department’s hiring restrictions. The Department lifted those restrictions in March 2014. The
OIG team supports hiring a locally employed staff member with relevant professional experience
to bolster embassy English-language programs.

         La Paz is off the beaten track for EducationUSA fairs that promote study in the United
States because of altitude, remoteness, and the small number of potential students. The public
affairs section has responded to this challenge by organizing its own annual university fair.
American officers, Fulbrighters, and locally employed staff who studied at U.S. institutions
present informational materials obtained from their alma maters; consular section staff present
student visa information; and locally based education advisers explain the American educational
system and application process. The 2013 college fair presented 57 U.S. colleges and universities
and attracted about 500 Bolivian students and family members.

        Another mechanism to foster contact between Bolivians and Americans and give
Bolivians first-hand experience in the United States is the Summer Work Travel J-1 Exchange
Visitor Program. In 2013, 7 students from Bolivia and more than 3,000 students from Peru
participated in the program. The embassy has not promoted this program, and the OIG team
encouraged them to do so.

        The public affairs staff includes a graphic designer who creates posters, publications,
invitations, logos, banners, and other printed and electronic designs. Some materials are
connected to particular programs, but others are more generic. Few embassies have this kind of
design resource, and La Paz has shared its products on an ad hoc basis. If the embassy consulted
with WHA, it could develop a more formal mechanism for making its design products available
to other embassies in Spanish-speaking countries.




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Press and Information Outreach

        The press office carries out far fewer of the activities that keep a normal press office
busy—drafting press guidance and talking points, issuing press releases and official statements,
arranging interviews for high-level visitors, and other public activities—because they would be
counterproductive in Bolivia. Instead, the office produces and distributes its own original
information products in formats suitable for the country. Radio is still highly influential in
Bolivia, and the press office produces radio programs in Spanish and three indigenous languages
and distributes them to 232 radio stations. Often produced in cooperation with other embassy
sections, the programs cover topics like health, visas, women entrepreneurs, trafficking in
persons, and interviews with Bolivians who have visited the United States on various programs.

        The press office also produces an eight-page printed newsletter every other month with a
circulation of about 2,000, including academic and government institutions, municipalities,
libraries, and other public spaces. The press office creates this newsletter independent of the
Information Resource Center, which produced a similar publication until 2010 and maintains
current contact lists for libraries and other institutions. Collaboration between the Information
Resource Center and the press office would improve content and distribution of printed products.

       The press office staff spends about 10 hours a day monitoring the Bolivian news media
and putting together morning and afternoon press summaries, which could be combined into one
product. Except for reporting on breaking news, the embassy could outsource most of its routine
media monitoring and save considerable staff time.

        The embassy has two nearly identical Web sites: one in English and one in Spanish. The
public affairs section handles the news portions of the embassy Web site, and other sections,
such as consular and political/economic, handle other portions. Although the home page photos
showcased some recent embassy activities, the “Embassy News” section in mid-March had
stories at least 2 months old. Inside pages also were outdated; the business page, for example,
presented commercial opportunities with 2012 deadlines. All sections responsible for Web site
content need to update their pages regularly.

         The Information Resource Center manages the embassy Facebook page, which has
165,000 fans, a high number for a country with a low Internet penetration rate (estimates range
from 9 percent to 20 percent). The section frequently updates the page and responds to questions
and comments. However, the vast majority of items for this mission site come from the public
affairs section, which often finds out about other embassy activities after the fact.

       Informal Recommendation 2: Embassy La Paz should require all sections to contribute
       relevant information to mission social media and Web sites.

       The Bureau of International Information Programs reviewed the embassy Web site in
February and found only a few minor problems with accessibility for the disabled. However, the
photo rollovers only repeat the article headlines and do not describe the content of the photos
themselves as required by accessibility rules in Section 508 of the Rehabilitation Act.


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: Embassy La Paz should describe the photographs on its
       Web site photo rollovers.

       The section regularly produces well-made videos of its activities and posts them on
YouTube. However, the number of views is fairly small, averaging 89 in mid-March for the 10
most recent videos. Some past videos had 2,000–3,000 views, and a series on trafficking of
women garnered up to 15,000 views. The OIG team suggested that the embassy promote its
videos through social media and other means.

       The section’s electronic files are poorly structured, confusing, and filled with outdated
information, making it difficult to find needed information. The OIG team advised section
leadership to restructure the public affairs electronic files.

Political and Economic Affairs

        The political/economic section staff is frustrated and discouraged, primarily because of
lack of front office policy direction, as well as poor communication, organization, and training
within the section. Given the deteriorating political environment and unclear policy guidance
from both the front office and the Department, the section had an opportunity to devise and drive
a revised policy and action agenda, but did not do so. The section has done a good job, however,
in combating trafficking in persons, U.S. export promotion, person-to-person outreach, and some
aspects of political reporting.

Section Organization and Communication

        Virtually all local and U.S. direct-hire employees expressed uncertainty about the
mission’s reporting and program priorities and their expected roles. The front office and former
section chief made little effort to establish clear reporting or action priorities, nor did they take
advantage of opportunities to train locally employed staff and FAST officers in cable writing.

Recommendation 8: Embassy La Paz should establish a political and economic reporting and
programming plan and clearly assign and track projects to completion. (Action: Embassy La Paz)

        The OIG team reviewed a number of substantive and useful report drafts prepared by
officers and local employees that were never sent, usually because the former section chief
dismissed them without working with the drafter to improve the texts. This wasted effort caused
significant staff frustration. In each case the OIG reviewed, the report could have been a valuable
product with some editing and direction by the section’s leadership. The inspection team
counseled section leadership to organize training workshops on writing reports for Washington
for locally employed staff and less experienced officers.

        The section chief and officers meet with the chargé or acting DCM weekly. The section
has no regularly scheduled staff meeting limited to American staff beyond a quick, “stand-up”
meeting most mornings. The section’s only formal staff meeting is held weekly, includes all
locally employed staff, and is conducted in Spanish, to the disadvantage of some American staff.
The inspection team recommended to the section chief that he hold frank, clear, operational
meetings with cleared American staff, where he could explain and task current and upcoming
                                                13
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

priorities and improve agenda-setting and internal communications. Many embassies have found
that a pattern of weekly internal staff meetings, chaired by the section chief, and one monthly
meeting of officers with the front office works well.

        The section created its operational and biographic electronic files in an ad hoc and
incoherent way. Folders are not arranged intuitively, and files are not named in accordance with
an easily searchable nomenclature system. As staff transfer, information can be lost and newly
arrived staff have difficulty finding their predecessors’ records, reducing section efficiency.
Further, the annual identification and archiving of important record documents, required by 5
Foreign Affairs Manual (FAM) 441-443, is more difficult without good records management.
The office manager understands the problem and is devising a restructuring plan for section files;
however, her lengthy temporary duty service in the front office has hampered these efforts.

Recommendation 9: Embassy La Paz should create and require the use of a standardized
political/economic electronic filing system in a drive accessible to all section officers. (Action:
Embassy La Paz)

Reporting

       The inspection team reviewed 15 months of mission political and economic reporting.
Output totaled approximately 130 substantive cables, with a measurable decline over the period.
The volume and breadth of the embassy’s reporting do not reflect the size or talent of the
mission’s reporting staff. Washington end users understand the embassy’s constricted reporting
environment, but they noted sparse coverage of numerous subjects. One end user described the
embassy’s political reporting as “timely and useful, but narrow.” Most end users noted a decline
in economic reporting, which they rely on because few private-sector analysts cover the small
Bolivian economy. The economic cables were good quality, but they were rare.

        The embassy’s political reports provided good synopses of current developments, with
succinct and relevant embassy comment. During the 15 months under review, however, the
embassy sent no strategic-level policy cables to Washington that drew together all the threads of
information and provided analysis and broader recommendations to manage relations with the
Morales government. Several topics, although important, comprised too large a share of embassy
reporting and provided too much detail for Washington readers. The OIG team reviewed reports
by subject matter and concluded that the embassy gives insufficient attention to economics,
finance, and trade (18 percent of cables); environmental issues (9 percent); and counternarcotics
efforts (8 percent). All these topics are of keen interest to Washington.

Human Rights and Trafficking in Persons

        With the support of the former chargé, the embassy actively reported on and publicly
promoted human rights, particularly countering trafficking in persons. The Department’s Office
to Monitor and Combat Trafficking in Persons told inspectors that the embassy’s efforts to raise
human rights awareness with Bolivian Government and nongovernment entities are “a model for
the region.” The embassy’s political/economic and public affairs sections implemented
successful human rights public diplomacy initiatives. Sparked by the FAST officer, these
included a 3-day antitrafficking training session for 50 Bolivian journalists, a human rights film
                                                 14
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

series at several educational institutions, monthly activities at a shelter for child sex trafficking
victims, and the production and distribution of a 21-episode dramatic radio series on human
trafficking. One hundred fifty-five radio stations broadcast the series throughout Bolivia to an
audience of at least 300,000 people. The OIG team urged the embassy to maintain these strong
efforts in promoting human rights.

Grants Management and Oversight Shortcomings

         Grants are a critical tool in the embassy’s outreach and engagement efforts. The embassy
does not have enough staff with grants training. At the time of the inspection, only one public
affairs section officer had a grants warrant. Two FAST officers in the political/economic section
were taking online grants management training. Only two local public affairs section staff
members were certified as grants officer representatives, although more had grants oversight
responsibilities. The political/economic section has no locally employed staff trained in grants
management, even though these staff members could provide continuity, because most U.S.
direct-hire staff members serve in La Paz for only 2 years.

        The political/economic section has formal or informal oversight responsibility for about a
dozen grants. The section is now implementing three grants from various offices in the
Department. Assisted by the public affairs section and with funding from the Bureau of
Democracy, Human Rights, and Labor, it is designing a potential $300,000 program to combat
gender-based violence. Grants oversight responsibility falls almost exclusively on the two FAST
officers who are in the process of receiving online grants training as described in 4 Foreign
Affairs Handbook (FAH)-3, H-671. These officers describe some unease with their
understanding of their responsibilities and obligations. They cannot look to supervisors, who do
not have grants experience, for oversight.

         The embassy has discussed a grants officer training program in La Paz with WHA, but
they have made no decisions about timing or implementation. It is more cost effective to train
several officers and locally employed staff in the region than to send them to the United States
for training.

Recommendation 10: Embassy La Paz, in coordination with the Bureau of Western Hemisphere
Affairs, should request the Foreign Service Institute to provide on-site training for all embassy
staff with responsibility for grants oversight and their supervisors. (Action: Embassy La Paz, in
coordination with WHA)

        Grants files in the public affairs section were generally in good order, with proper goals
and documentation. However, property grants, such as book donations, generally had no end date
for the project period, as required by Grants Policy Directive 3 (Grants Management Forms) and
Grants Policy Directive 30 (Property Grants and Requirements for the Disposal of Property
through Federal Assistance Awards).

Recommendation 11: Embassy La Paz should include end dates in the project period for all its
grants. (Action: Embassy La Paz)


                                        15
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        For two recent workshop programs, the section issued about 80 small (less than $550)
grants for participant travel. Some grants were for less than $7. Issuing so many small grants is
inefficient.

           Informal Recommendation 4: Embassy La Paz should consolidate small grants into a
           larger grant to a partner organization.

       The public affairs section grant files contained two completed grants totaling more than
$2,000 that a grants officer had dated but not signed. Section staff members ascribed this
oversight to an officer no longer at the embassy. Grants Policy Directive 2, Liability and
Enforcement Actions for Unauthorized Commitments, describes procedures to ratify these
funding commitments.

Recommendation 12: Embassy La Paz should ratify the funding commitments for unsigned
public diplomacy grants. (Action: Embassy La Paz)

        The public affairs section does not have enough experienced grants officers. Only one
person in the section, a FAST officer, had a grants warrant as of February 2014. From June
through August 2013, in the absence of any public affairs section grants officer, two
political/economic FAST officers signed about 100 public diplomacy grants, about which they
knew little.

           Informal Recommendation 5: Embassy La Paz should require that the public affairs
           section have at least two warranted grants officers.

Consular Affairs

Overview

        The consular section is a small operation, processing fewer than 20,000 nonimmigrant
visas, approximately 800 immigrant visas, and about 1,600 passport applications in 2013. The
section chief manages from her desk and via email. This remote management style is not
appropriate for the size of the operation and has a negative impact on section morale and
operations. The section addresses the needs of both Bolivian and American clients satisfactorily,
but the combined immigrant and nonimmigrant visa unit can achieve greater efficiencies and the
American citizens services unit’s warden system suffers from lack of attention. The section
oversees two consular agencies, in Cochabamba and Santa Cruz.

Consular Section Access

       As noted in the 2008 inspection report,1 consular clients, including visa and passport
applicants, access the consular waiting room through the main embassy lobby. Having embassy
employees and nonconsular visitors share a common entrance creates confusion and delays
consular customer access. On occasion, unhappy or emotional consular clients approach embassy

1
    Report of Inspection, Embassy La Paz, Bolivia, Report No. ISP-I-08-56A, September 2008.

                                             16
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

employees to discuss their problems. The Bureau of Consular Affairs and the Office of Overseas
Buildings Operations are considering a plan to convert an existing fire exit into a direct entrance
to the consular waiting room. The project is justified.

Visa Unit

       Visa applications jumped 26 percent in 2013. A new professional adjudication specialist
helped cope with this increase, and the section has no backlog in nonimmigrant visa
appointments.

        The consular section chief only adjudicates high-profile or referral visa cases. Recent
guidance in 13 STATE 153746 reminded consular managers that they are expected to do some
interviewing themselves. The section chief’s lack of hands-on participation contributes to longer
hours that the more junior employees have to spend interviewing, and remoteness from actual
processing undermines her credibility as an expert. It also reduces the opportunities for
management to train new personnel and to identify potential interview technique and workflow
efficiencies.

Recommendation 13: Embassy La Paz should require the consular section chief to conduct
routine visa interviews on a regular basis. (Action: Embassy La Paz)

        The consular chief reviewed only 5 percent of the visa and American citizens services
chiefs’ nonimmigrant visa adjudications in the past 6 months. Neither the former chargé
d’affaires nor the former acting DCM reviewed the 65 cases that the consular chief handled in
the past year. Failure to review the required 10 percent of visa approvals and 20 percent of
refusals, per 9 FAM 41.113 PN 17 and 9 FAM 41.121 N2.3-7, leads to lack of consistency in
visa issuance and refusal. Adjudication reviews are also a vital management control to prevent
malfeasance.

Recommendation 14: Embassy La Paz should bring its process for reviewing visa adjudications
in line with Department regulations. (Action: Embassy La Paz)

        An example of inefficiency is the visa unit’s insufficient use of the visa interview waiver
for applicants of certain ages and for those applicants renewing visas, per 9 FAM 41.102.
Reinterviewing applicants who have used their visas appropriately in the recent past slows down
workflow.

Recommendation 15: Embassy La Paz should implement the waiver of personal interview for
appropriate visa applicants. (Action: Embassy La Paz)

Panel Physicians

       The consular section has contracted with three panel physicians—one each in La Paz,
Cochabamba, and Santa Cruz—to conduct medical examinations for the embassy’s 700–800
annual immigrant visa applicants. Guidance in 9 FAM 42.66 N2.2 recommends 1 panel
physician for every 2,000 applicants. Given the distances in Bolivia, consular management’s
oversight of and coordination with the three physicians is difficult. Some of the panel physicians
                                               17
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

are unresponsive to consular section requests and slow to implement new requirements.
Distributing the small number of visa applicants among three physicians reduces the embassy’s
leverage to encourage their cooperation. Embassy La Paz has an agreement with Embassy
Asuncion that the latter will accept immigrant visa cases for those persons who have altitude-
related health problems, which mitigates the need to have additional panel physicians in the two
cities with lower elevations.

Recommendation 16: Embassy La Paz should reduce the number of panel physicians from
three to one in La Paz. (Action: Embassy La Paz)

American Citizens Services Unit

        The American citizens services unit maintains a warden network, as outlined in 7 FAM
070. The program has 76 wardens, but the warden program suffers from lack of attention. It is
not clear that the wardens are aware of their responsibilities and resources in the event of an
emergency, when they might lose communication with the embassy. The network is designed to
connect the consular section to more than 46,000 U.S. citizen residents in Bolivia, as well as to
tourists. Many parts of the country are easily reachable only by air, limiting rapid embassy
response, which makes a vibrant warden program even more important. The embassy has not
hosted a general warden meeting or training session in more than 2 years. The consular section
scheduled a meeting in April 2014 because, according to 7 FAM 076, embassies should hold
warden outreach meetings annually. Building ties to long-term residents in remote locations—
and convincing them to serve as wardens—involves a sustained effort by the consular section
and the support of other parts of the embassy.

Recommendation 17: Embassy La Paz should implement an outreach plan to attract wardens,
update existing warden training, and maintain regular contact with the warden network. (Action:
Embassy La Paz)

Fraud Prevention Unit

        The fraud prevention unit consists of two investigators and an entry-level supervisor. The
consolidation of the immigrant and nonimmigrant visa units provided an opportunity to dedicate
additional officer time to the fraud prevention manager role. The unit focuses on training and
fraud prevention, including training local airline personnel in document identification. Several
visa validation studies are in process, including for young professionals, domestic employees,
and referral cases.

        Notwithstanding their expanded training program and the field investigation schedule, it
is not clear that the La Paz consular workload justifies two full-time investigators as well as a
fraud prevention manager—a staffing model for a much larger consular operation.

       Informal Recommendation 6: Embassy La Paz should evaluate the fraud prevention
       workload to determine the most appropriate staffing model.



                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Consular Agency Santa Cruz

         The Santa Cruz consular agency’s location is unsuitable. The agency occupies part of a
compound that it previously shared with other U.S. Government agencies that have now left the
country. The remainder of the compound is or will soon be occupied by the landlord, an oil
company. The compound itself is in a hard-to-reach residential location with no public transport
or parking. Furthermore, the departure of other U.S. Government tenants means that, absent a
significant security upgrade, the agency does not meet current security standards. The compound
is also in serious need of maintenance, with water leaks and falling roof tiles.

Recommendation 18: Embassy La Paz, in coordination with the Bureau of Consular Affairs and
the Bureau of Overseas Buildings Operations, should move the consular agency in Santa Cruz to
a new location. (Action: Embassy La Paz, in coordination with CA and OBO)

Consular Agency Cochabamba

        Cochabamba’s consular agency is located at a lower elevation than La Paz and provides
an alternative service center for American citizens who have difficulty with the La Paz altitude.
The agency is on the second floor of a commercial office building.

       The agent and a locally employed assistant provide services 4 hours per day, 5 days a
week. In the past year, demand for services has increased. The agency has scheduled more
appointments, filling up the public hours. As a result, the agency staff routinely spends an
additional hour or more each day with essential administrative work. The embassy is in the
process of analyzing the workload increase to determine whether the agent’s and assistant’s work
hours are sufficient to handle the workload.




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Resource Management

                   Agency                       U.S.       U.S.     Foreign                 Total         Total
                                               Direct-    Local-    National                Staff        Funding
                                              Hire Staff Hire Staff  Staff                               FY 2013

    Department of State
    Diplomatic and Consular
    Programs2                                           34               5            60         99      $ 2,055,145
    International Cooperative
    Administrative Support Services                       5             15          126        146      $10,919,300
    Public Diplomacy                                      4              1           19         24       $1,664,275
    Diplomatic Security                                   1              0            1          2         $257,628
    Marine Security                                       8              0            4         12         $137,340
    Representation                                        0              0            0          0          $33,183
    Bureau of Overseas Buildings
    Operations                                            0              0             0          0        $ 946,254
    Department of Agriculture
    Animal and Plant Health
    Inspection Service                                    0              0             1          1
    Department of Defense
    Defense Attaché Office                                5              0             2          7        $235,230
    Security Cooperation Office                           3              2             1          6        $140,000
    Army Corps of Engineers                               0              0             2          2        $203,000
    Totals                                                                                              $16,966,585

Financial Management

        The financial management unit provides services at an International Cooperative
Administrative Support Services (ICASS) satisfaction rate slightly above regional averages and
on par with worldwide averages. The unit does not have a senior supervisory financial specialist
position; however, embassy management noted that the unit has managed itself in the past
without senior leadership.

Suspense Deposit Abroad Account

        Embassy La Paz is using the Suspense Deposit Abroad account for unauthorized
purposes. The embassy uses the account mostly for personal collections from employees to pay
for laboratory tests ordered by the health unit. The embassy benefits from a 13-percent discount

2
    Diplomatic and Consular Program figures include all consular section and most regional security office staff.

                                               20
                                   SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

for making consolidated payments to the laboratory. According to 4-FAH-3 H-326.2-4(b), the
Suspense Deposit Abroad account may not be used to make personal payments on behalf of U.S.
Government employees or dependents, unless specifically authorized by the Bureau of the
Comptroller and Global Financial Services.

Recommendation 19: Embassy La Paz should seek authorization from the Bureau of the
Comptroller and Global Financial Services to use the Suspense Deposit Account for laboratory
fee collections and payments. (Action: Embassy La Paz)

Consular Subcashier Duties

        The embassy’s principal cashier also functions as the consular subcashier, a management
control deficiency cited in the FY 2010 Cashier Operations Action Plan. The plan recommended
that the embassy designate a consular section employee as a subcashier for collection of consular
fees in accordance with 7 FAH-1 H-734.1. The recommendation was marked as completed
pending the arrival of a new financial management officer, who would establish the consular
subcashier position, but the position was never created. According to 4 FAH-3 H-413.5, where
an overseas post with limited staff requires the same individual to perform multiple functions
that could create a potential conflict of interest, the post should seek procedural guidance from
relevant policymaking authorities in the Office of Financial Policy. Separation of duties is
necessary to reduce the risk of error, waste, and wrongful acts.

Recommendation 20: Embassy La Paz should seek procedural guidance from the Office of
Financial Policy to determine whether the principal cashier can continue functioning as the
consular subcashier. (Action: Embassy La Paz)

Pay.gov

        Since the introduction of pay.gov in September 2013, only 1 out of 14 employees has
used this U.S. Department of the Treasury Web site to make secure, electronic payments to the
principal cashier. The Web site is used to facilitate employee payment of any outstanding bills
after they leave the country. The embassy includes pay.gov in its cashier’s policy posted on the
intranet and in the instructions sent to all departing personnel, but does not enforce its use. The
use of pay.gov eliminates the risk associated with departing personnel leaving blank checks at
the embassy to cover outstanding payments.

Recommendation 21: Embassy La Paz should require departing U.S. direct-hire employees to
use pay.gov for outstanding bill payment. (Action: Embassy La Paz)

Training

        Two budget analysts and one voucher examiner have not taken the basic training courses
for their positions, and many other financial management employees have taken only one or two
of the available financial courses. Staff would benefit from continued education in new
requirements, systems, and methods.


                                        21
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Financial Management Systems

         The embassy’s phone billing, voucher numbering, and bill of collection system lost some
of its automated functionality because the reduction in force eliminated much of the system’s
programming expertise, which resided in the former INL section. The system is used to generate
phone bills for employees’ personal calls, update the principal cashier’s bill of collection system,
and send out overdue payment notifications automatically. The Bureau of the Comptroller and
Global Financial Services noted the system’s usefulness during its last visit to the embassy;
however, the embassy’s information technology unit has had difficulty allocating and training
staff to maintain the INL-developed system. As a result, the embassy is not using the time-saving
system to its full potential.

       Informal Recommendation 7: Embassy La Paz should update and maintain the phone
       billing, vouchering, and bill of collection system.

Rejected Payroll Transactions

        As of March 2014, the embassy had 168 U.S. direct-hire and 17 locally employed staff
payroll transactions rejected by the Global Financial Management System for former INL
employees. The rejected transactions have been pending since October 2013 because INL did not
provide the embassy with the necessary funding to clear these payroll transactions until
December 2013. The embassy cleared 45 rejected transactions during the inspection and is
working to clear the remaining transactions. According to 4 FAM 224(b), rejected, but valid,
transactions must be posted in a timely manner. Rejected transactions can be an indication that
an obligation was improperly charged.

Recommendation 22: Embassy La Paz should review and clear rejected payroll transactions.
(Action: Embassy La Paz)

Incorrect Use of Diplomatic and Consular Program Funds

       The embassy used Diplomatic and Consular Program funds to pay for upgrades and
make-ready costs for the former DCM residence, which is no longer in use. Diplomatic and
Consular Program funds can be used to pay for certain household items, such as small appliances
valued at less than $250, in representational homes. However, program funds were used to pay
for plywood for the construction of a new closet, screws and nails, pipes to build a carport roof,
and repairs to a garage gate sensor, among other things. According to 4 FAH-3 Exhibit H-162.2,
residential maintenance and repair should be funded by the Bureau of Overseas Buildings
Operations. Using funds for unauthorized purposes is a funds control deficiency.

Recommendation 23: The Bureau of Overseas Buildings Operations, in coordination with
Embassy La Paz, should reimburse the Diplomatic and Consular Program fund for any
unauthorized expenses. (Action: OBO, in coordination with Embassy La Paz)




                                       22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Human Resources Office

        A number of embassy officers have failed to complete performance evaluations on their
subordinates or for themselves, despite regular reminders from the human resources office. A
March 6, 2014, memo from human resources to the front office cited five interim evaluation
reports for U.S. employees that were between 12 and 106 days overdue. Per 3 FAM 2813.4,
interim evaluation reports are to be submitted to the Director General of Human Resources in
Washington within 30 days of the end of the performance rating period. In 3 FAH-1 H-2819.1-3,
the Department outlines measures for those responsible for delinquent reports. The human
resources office memo also listed 11 locally employed staff whose performance evaluations were
between 21 and 242 days late. Locally employed staff members cannot qualify for in-grade
salary increases if their performance reviews are not current. In a related matter, for the 2013
evaluation cycle, less than 15 percent of work requirements statements for U.S. direct-hire
employees were completed and approved within 45 days, as required by 3 FAH-1 H-2815.

Recommendation 24: Embassy La Paz should require all supervisors to create initial work
requirements statements and to complete performance evaluations within the mandated
timelines, with provisions for appropriate action for noncompliance. (Action: Embassy La Paz)

        Position classification for locally employed staff is done through the Mission
Classification System, but performing the function in house has become increasingly difficult
because of the reduction in human resources staffing and the elimination of the senior local staff
position. The human resources officer hopes to outsource the function to the Florida Regional
Center, which has recently begun to classify positions for some embassies as one of its regional
services.

Recommendation 25: Embassy La Paz, in coordination with the Bureau of Western Hemisphere
Affairs, should transfer the Mission Classification function to the Florida Regional Center.
(Action: Embassy La Paz, in coordination with WHA)

         The previous human resources officer required that the position classification forms be
printed out and would only approve the paper-based classifications manually. As a result, the
embassy has developed a large backlog of approved position descriptions that are still listed as
pending in the classification system. Given the resource limitations in the human resources
office, the backlog is unlikely to be cleared.

       Informal Recommendation 8: Embassy La Paz should provide data entry resources to
       the human resources office in order to clear the backlog of position classifications that are
       approved but listed as pending in the database.

         Although the embassy participates in the local social security retirement plan, it does not
participate in the local social security health program. Instead, the embassy provides a private
health plan for locally employed staff. When locally employed staff members retire, most of the
social security health plans are unwilling to accept them because they have not been
longstanding contributors. The retirees are left with diminished health insurance coverage for
their retirement years.

                                        23
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 26: Embassy La Paz, in coordination with the Bureau of Human Resources,
should determine whether locally employed staff participation in both the local social security
health program and a private health plan is feasible and fundable. (Action: Embassy La Paz, in
coordination with DGHR)

Equal Employment Opportunity and the Federal Women’s Program

        The Equal Employment Opportunity (EEO) program has two EEO counselors and one
local employee liaison. The EEO team provided training and presentations on several occasions
in both English and Spanish. The intranet Web page and bulletin boards throughout the embassy
offer a range of program information, including EEO counselor contacts. Within the past year,
the EEO counselors handled more than 10 inquiries, many involving gender bias or sexual
harassment.

        The embassy is increasing its focus on the Federal Women’s Program. The new program
coordinator is reenergizing the program by providing more training and confidence-building
tools, especially for local staff, and seeking ways to increase participation by making the
program more relevant.

General Services Office

      The general services office’s 2014 ICASS scores were well above regional and
worldwide averages, despite the reduction in force disruptions the unit suffered.

        The Department of State Standardized Regulation 072.12 requires that the hardship
differential report, consumables allowance report, and cost-of-living survey be submitted every
2 years. All these reports are late. The embassy is paying allowances based on outdated
information. The newly arrived general services officer has initiated an update of the reports for
submission to the Bureau of Administration’s Office of Allowances.

Recommendation 27: Embassy La Paz should prepare and submit to the Department updated
hardship differential and consumable allowance reports and the cost-of-living survey report so
that the Department of State can recalculate the appropriate allowances. (Action: Embassy La
Paz)

Motor Pool

       Gasoline control procedures, using centrally controlled tickets, are effective. The new
supervisor recently organized and reconciled the paper and electronic records used for tracking
vehicle usage, correcting a potential management control problem. However, the embassy has
not updated its motor vehicle policy since 2009.

       Informal Recommendation 9: Embassy La Paz should update and reissue the motor
       vehicle policy.

       When approved by the management counselor on an ad hoc basis, the embassy provides
motor pool transportation at no charge to mission members participating in trips organized by the
                                                24
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

community liaison office (CLO). Although 14 FAM 433.3 states that the chief of mission may
approve “other authorized use” of official vehicles when public transportation is unavailable or
unsafe or when such use is advantageous to the U.S. Government, 14 FAM 433.4 requires that
the motor vehicle accountable officer collect a fee for all “other authorized use” of official
vehicles, with exceptions specifically listed in the regulation. This chief of mission exercise of
authority, according to 14 FAM 433.3, requires a written finding of the circumstances that justify
the use of official vehicles for the intended purpose and also addresses liability insurance
requirements. The embassy did not follow this practice when authorizing motor pool
transportation for CLO activities.

Recommendation 28: Embassy La Paz should determine in writing whether the use of official
vehicles for community liaison office excursions is an acceptable “other authorized use.”
(Action: Embassy La Paz)

Property Management

         Although the embassy has held 32 auctions in the past year and a half, it still carries an
unnecessarily large inventory of expendable and nonexpendable property. The embassy is
planning two auctions per month over the next year to reduce inventory further, and it is not yet
clear how much storage space the embassy will need once it completes its inventory reduction.
The embassy currently uses three warehouses: the general services warehouse, a smaller
facilities warehouse and shop, and an expendable supplies warehouse located in the general
services and motor pool annex across the street from the chancery.

       Receiving procedures meet regulations, but the receiving area cages in both the general
services and the expendable supply warehouses are not securable per 14 FAH-1 H-318.1-2 a.
The embassy is planning remedial measures.

Recommendation 29: Embassy La Paz should secure the receiving areas at all warehouses.
(Action: Embassy La Paz)

        The general services warehouse—the primary furniture and equipment storage facility—
is a former pharmaceutical factory that is unsuited for warehouse use and fails to meet basic
access and safety standards outlined in 14 FAH-1 H-318.1. The embassy is aware of these
shortcomings and has tried to locate alternative space unsuccessfully for several years. The
embassy is exploring build-to-lease options with local landlords because La Paz does not have
warehouses readily available. A custom-built property would also permit consolidation of the
general services and facilities warehouses and the maintenance shops, resulting in economies of
scale. Acknowledging that the embassy may have to maintain the existing warehouses for some
time, the classified annex makes a recommendation on remedial security measures.

Recommendation 30: Embassy La Paz, in coordination with the Bureau of Overseas Buildings
Operations, should identify a warehouse that meets facility and safety standards. (Action:
Embassy La Paz, in coordination with OBO)



                                        25
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Procurement and Contracting

        Two officers have current contract warrants. The files for major contracts indicate proper
procedures relating to full and open competition and contain appropriate clauses relating to
trafficking in persons. The embassy uses a number of blanket purchase agreements to procure
goods and services. Most of these agreements also indicate sufficient open competition, but
one—house cleaning for make readies—approaches sole-source status, with one vendor used 80
percent of the time.

         Informal Recommendation 10: Embassy La Paz should increase the number of blanket
         purchase agreements for house cleaning services.

        The newly arrived general services officer reorganized the purchase card program, which
previously lacked proper record keeping. She reduced the number of cardholders from six to
three and designated two approving officials. However, the program coordinator failed to
perform the 2013 in-house survey as required by 4 FAM 455.3 a. This survey is essential to
maintain the integrity of the purchase card program.

Recommendation 31: Embassy La Paz should implement a standard operating procedure for
reviews of purchase card activity and the annual purchase card survey. (Action: Embassy La
Paz)

Travel

        One financial management unit employee processes all travel. That employee prepares all
travel orders in the E2 travel management system on the basis of requests made through an in-
house database. A traveler’s supervisor is not included as part of the formal approval routing, a
potential management control vulnerability that is contrary to procedures contained in Global
Financial Services’ Knowledge Base #31682.

         Informal Recommendation 11: Embassy La Paz should include a traveler’s supervisor
         as part of the formal approval pool and routing template in E2 travel.

Facilities Management

         The facilities management unit has an ICASS satisfaction rate above regional and
worldwide standards. However, OIG inspectors received numerous complaints about the
facilities manager’s customer service skills. Many of these complaints, however, stemmed from
customers’ inadequate understanding of ICASS service standards, such as how long it takes to
resolve work tickets and what requests the facilities staff can undertake. The OIG team discussed
with the facilities manager different ways to improve communication with customers and help
set realistic expectations.

         Informal Recommendation 12: Embassy La Paz should establish a mechanism to advise
         its customers of the International Cooperative Administrative Support Services standards
         they can expect.

                                        26
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Unannounced Subcashier Verifications

        The facilities section was late submitting reports of monthly unannounced subcashier
cash counts to the principal cashier at least twice in 2013. The facilities manager attributed these
delays to increased workload resulting from the reduction in force. Nevertheless, 4 FAH-3 H-
397.2-3 a. requires monthly unannounced cash counts. Failure to conduct unannounced cash
counts in a timely manner could result in the misuse or loss of funds.

Recommendation 32: Embassy La Paz should enforce subcashier cash count requirements.
(Action: Embassy La Paz)

Safety, Health, and Environmental Management

        The Office of Safety, Health, and Environmental Management provided its report of
deficiencies and recommendations to the embassy in December 2013. Since then, the embassy
has not updated any recommendations as completed nor accepted them in the Management
Assessment Results Tracking System, as required by 11 STATE 77926. Updates to the tracking
system are necessary to monitor corrective actions taken against workplace and residential
hazards.

Recommendation 33: Embassy La Paz should update completed and accepted safety, health,
and environmental management recommendations in the Management Assessment Results
Tracking System. (Action: Embassy La Paz)

        The embassy does not report all motor vehicle accidents. It conducts inadequate post
occupational, safety, and health officer training and has an inactive safety, health, and
environmental management committee. The December 2013 Office of Safety, Health, and
Environmental Management report identified all these deficiencies and recommended corrective
action. Safety, health, and environmental management deficiencies pose a risk to the life, health,
and safety of embassy employees and dependents.

Recommendation 34: Embassy La Paz should comply with all of the safety, health, and
environmental management recommendations in the December 2013 Office of Safety, Health,
and Environmental Management report. (Action: Embassy La Paz)

Diesel Exhaust in Chancery Building

        The chancery’s emergency diesel generators are located directly below the fresh air
intake system. When the generators are operating, diesel exhaust enters the chancery building
through the fresh air intake and accumulates in the elevator shafts and basement area. During the
inspection, the generators activated during several power outages, causing a high concentration
of exhaust gasses in the elevators. Facilities personnel were aware of the problem and noted that
it has occurred several times in the past few years; however, the most recent safety, health, and
environmental management report did not identify this hazard. Embassies are required to follow
design standards for ventilation systems to control hazardous materials for the protection of
personnel in the workplace, as specified in 15 FAM 953. Pollutants and carbon monoxide can
cause headaches and dizziness and, in high enough concentrations, can lead to death.
                                                  27
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 35: The Bureau of Overseas Buildings Operations, in coordination with
Embassy La Paz, should correct the safety and occupational health risks associated with the
emergency generators. (Action: OBO, in coordination with Embassy La Paz)

Information Management

         The information management unit effectively meets the mission’s communications needs
and received above worldwide average ICASS scores. Even with recent missionwide reductions
in staff, the systems staff still supports a large network infrastructure. During the staffing
transition, the information management officer successfully retained a solid cadre of
administrators who can be credited with installing several Department applications, designing
creative solutions, and undertaking pilot programs. The transition has been a challenge because
many of the employees transferred from offices that were unfamiliar with the Department’s
systems, regulations, and requirements. As a result, management is restructuring some internal
processes and procedures to address the turnover in personnel.

        Despite the unit’s strengths, the OIG team identified several areas requiring attention,
including help desk procedures, the uninterruptible power supply system, excess equipment,
systems inventory, and the diplomatic mail program. To their credit, management resolved
several problems during the inspection. Additional details on some of the unit’s challenges are in
the classified annex to this report.

Information Systems Center

        The information systems center recently completed a restructuring that converted a
specialist position into an information systems officer. The restructuring also demoted the
longtime locally employed systems manager. The information management officer did not,
however, provide the information systems officer guidance on managing this reconfigured unit.
Lack of communication has affected morale, caused confusion about responsibilities, and
inhibited workflow. Management does not hold regularly scheduled unitwide staff meetings that
provide direction on project plans and mission initiatives. In a successful operation, tasks are
clearly defined with timelines and expected results, aided by management guidance and
followup.

       Informal Recommendation 13: Embassy La Paz should establish a regular information
       service center meeting schedule to facilitate open communication and clear direction.

Help Desk Operation

        The information systems center manages a help desk operation that lacks a single point of
contact to interface with customers and manage service requests. Currently, customers submit
service requests either through the online eServices system or by contacting the information
systems center staff directly. The systems center has no established procedure for managing
service requests, which staff coordinates on an ad hoc basis, or a mechanism for soliciting
customer feedback. As a result, eService requests are not always handled in a timely manner and
backlogs develop. Staffing transitions in the unit have compounded the problem, making it
difficult for the administrators to complete operational duties while providing guidance to help
                                                 28
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

desk personnel. The information management officer acknowledges this shortcoming and is
establishing standard operating procedures for a help desk program.

Recommendation 36: Embassy La Paz should establish a standard operating procedure,
including a customer feedback mechanism, for managing the information systems center’s
eService requests. (Action: Embassy La Paz)

Uninterruptible Power System

        The embassy’s centralized uninterruptible power system is in disrepair and has not been
fully functional for the past 3 years. As a result, the chancery building experiences frequent
power outages caused by the instability of the local power infrastructure. The power outages
have caused permanent damage to the server room and disrupted the network infrastructure.
Replacement of the system is an urgent embassy need. Without a functioning uninterruptible
power system, the embassy will continue to experience damaging power outages. During the
inspection, a mission-requested support team from the Bureau of Overseas Buildings Operations
conducted a site review of the centralized power system to identify necessary repairs.

Recommendation 37: Embassy La Paz, in coordination with the Bureau of Overseas Buildings
Operations, should repair or replace the mission’s centralized uninterruptible power system.
(Action: Embassy La Paz, in coordination with OBO)

Excess Equipment

        The embassy inherited a large amount of radio, computer, and telephone equipment from
several departing agencies. The equipment includes all the pieces necessary to establish an
emergency radio network for a large mission. The radio equipment alone is very expensive and
an essential tool for establishing emergency communications at all missions. Embassy La Paz
already has an emergency communications network and does not need another. The equipment is
currently being stored in a warehouse. The excess equipment can be put to better use at other
embassies in the region or can be returned to the Department.

Recommendation 38: Embassy La Paz, in coordination with Bureau of Western Hemisphere
Affairs, should dispose of its excess radio and systems equipment. (Action: Embassy La Paz, in
coordination with WHA)

Inventory

       The information systems center previously had coordinated a standard operating
procedure with their general services office counterparts to account for all unclassified systems
equipment. The procedures allowed the staff to locate every accountable item of systems
equipment quickly, resulting in a near-perfect inventory record. Reduction-in-force staffing
changes in the general services unit replaced experienced individuals with new employees who
are unfamiliar with the agreed-upon process for tracking systems equipment. As a result, systems
equipment is often accounted for inaccurately, requiring the systems staff to search for items
erroneously listed as missing. The process is time consuming and prevents the systems staff from
completing its operational duties.
                                                 29
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 14: Embassy La Paz should implement the previous standard
       operating procedure for locating unclassified systems equipment and train their general
       services counterparts in its use.

Universal Serial Bus Ports

        The universal serial bus ports on the OpenNet network have not been locked down. These
active ports create potential avenues for compromise of information, including personally
identifiable information. Management acknowledges the vulnerability and is in the process of
locking down the open ports.

Diplomatic Post Office

         Embassy La Paz is listed as a Category C post, with full access to the diplomatic post
office. In accordance with 14 FAH-4 H-113, all Category C missions must use the diplomatic
post office for personal mail. However, management has supported using the diplomatic pouch
for personal mail because of diplomatic post office shipping delays caused by reliance on a
single contract carrier in contravention to the regulations. The embassy does not have a
management notice requiring the appropriate use of the diplomatic pouch. An established
diplomatic mail policy would inform mission staff of approved use and Department regulations.

Recommendation 39: Embassy La Paz, in coordination with the Bureau of Administration,
should establish a diplomatic mail policy for appropriate use of the unclassified diplomatic
pouch and the diplomatic post office. (Action: Embassy La Paz, in coordination with A)




                                       30
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        The CLO has one coordinator, an assistant coordinator, and an editor for the weekly
newsletter. Both coordinators share in organizing newcomer orientation and community events.
The acting management officer secures funds used for CLO events in a safe in his office, which
poses an internal management weakness. In accordance with 2 FAM 113.7-2, CLO coordinators
should handle community funds through the services of the embassy’s community association or
a local bank account. The CLO coordinator is in the process of gaining access to the previous
coordinator’s official bank account and using it in the future.

Recommendation 40: Embassy La Paz should require the community liaison office coordinator
to use the official bank account for all funds. (Action: Embassy La Paz)

         The CLO coordinator is a member of the emergency action committee and attends many
section meetings. One of the eight core functions of the coordinator is to play an active role in
crisis management and be the secondary line of communication for the community during a
crisis. Despite serving on the emergency action committee, the coordinator does not play a role
in managing the warden system database and was not included in the regional security office’s
recent preparedness workshop. Per 2 FAM 113.7-4, the CLO coordinator is a part of the
embassy’s crisis management team and assists with community and personal contingency
planning. The CLO coordinator’s involvement during an emergency is pivotal for effective
information exchange between the embassy community and the embassy.

Recommendation 41: Embassy La Paz should integrate community liaison office crisis
management responsibilities into the emergency management program. (Action: Embassy La
Paz)

Health Unit

         The embassy has an on-site Foreign Service health practitioner, who also has regional
responsibility, as well as a full-time local registered nurse, a part-time local doctor, and two
administrative staff members. The unit does outreach to local hospitals and participates in mobile
clinics, in addition to conducting monthly in-house training sessions on hygiene, food handling,
and other relevant topics. The unit handled eight medical evacuations of U.S. personnel within
the past year and provides ongoing support to mission personnel for altitude-related ailments.

Overseas Schools

        Respondents to the OIG survey gave dependent education an average rating.
[Redacted] (b) (6)



        [Redacted] (b) (6)


                                         31
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

            With the 2008 departure of the Drug Enforcement Administration and the 2013
departures of USAID and INL, the school has experienced a significant decline in embassy
enrollment and has increased its recruitment of local students to cover costs. The Office of
Overseas Schools provided a $75,000 grant in 2013. The 10-member school board includes 5
embassy representatives who continue to advocate for embassy priorities.

       Although employees are relatively satisfied with the quality of education at
[Redacted] (b) (6)   parents are concerned with the quality of teachers and curriculum in math,
science, and advanced placement courses. Teacher salaries are much lower than in any other
country in the Western Hemisphere, which makes recruitment difficult. Parents also are
concerned about diversity at the school now that local students significantly outnumber English-
speaking or international students.

       The management counselor was administering grants from the Office of Overseas
Schools for the American Cooperative School while serving as a nonvoting school board
member. The 2 FAM 613 text prohibits such conflicts of interest.

Recommendation 42: Embassy La Paz should designate separate individuals to serve on the
school board and to administer any Office of Overseas Schools grants to avoid any conflict of
interest. (Action: Embassy La Paz)




                                       32
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources, should fill the vacant chief of mission and deputy chief of mission
office management specialist positions. (Action: WHA, in coordination with DGHR)

Recommendation 2: Embassy La Paz, in coordination with the Bureau of Western
Hemisphere Affairs, should finalize and promulgate to mission staff its Integrated Country
Strategy FYs 2014–2016. (Action: Embassy La Paz, in coordination with WHA)

Recommendation 3: Embassy La Paz should implement a comprehensive plan and timeline
for a missionwide contact database, including staff training, database configuration, and the
addition of each office’s contacts. (Action: Embassy La Paz)

Recommendation 4: Embassy La Paz should develop and implement a standard operating
procedure for reviewing management controls in each section and submitting relevant supporting
documentation to the chief of mission before preparing the annual statement of assurances.
(Action: Embassy La Paz)

Recommendation 5: Embassy La Paz should revive its embassy speakers program. (Action:
Embassy La Paz)

Recommendation 6: Embassy La Paz should develop a comprehensive missionwide strategy,
consistent with the National Export Initiative, to expand U.S. exports to Bolivia. (Action:
Embassy La Paz)

Recommendation 7: Embassy La Paz should convert one of its information specialist
positions into a cultural specialist position. (Action: Embassy La Paz)

Recommendation 8: Embassy La Paz should establish a political and economic reporting and
programming plan and clearly assign and track projects to completion. (Action: Embassy La Paz)

Recommendation 9: Embassy La Paz should create and require the use of a standardized
political/economic electronic filing system in a drive accessible to all section officers. (Action:
Embassy La Paz)

Recommendation 10: Embassy La Paz, in coordination with the Bureau of Western
Hemisphere Affairs, should request the Foreign Service Institute to provide on-site training for
all embassy staff with responsibility for grants oversight and their supervisors. (Action: Embassy
La Paz, in coordination with WHA)

Recommendation 11: Embassy La Paz should include end dates in the project period for all its
grants. (Action: Embassy La Paz)

Recommendation 12: Embassy La Paz should ratify the funding commitments for unsigned
public diplomacy grants. (Action: Embassy La Paz)


                                        33
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy La Paz should require the consular section chief to conduct
routine visa interviews on a regular basis. (Action: Embassy La Paz)

Recommendation 14: Embassy La Paz should bring its process for reviewing visa
adjudications in line with Department regulations. (Action: Embassy La Paz)

Recommendation 15: Embassy La Paz should implement the waiver of personal interview for
appropriate visa applicants. (Action: Embassy La Paz)

Recommendation 16: Embassy La Paz should reduce the number of panel physicians from
three to one in La Paz. (Action: Embassy La Paz)

Recommendation 17: Embassy La Paz should implement an outreach plan to attract wardens,
update existing warden training, and maintain regular contact with the warden network. (Action:
Embassy La Paz)

Recommendation 18: Embassy La Paz, in coordination with the Bureau of Consular Affairs
and the Bureau of Overseas Buildings Operations, should move the consular agency in Santa
Cruz to a new location. (Action: Embassy La Paz, in coordination with CA and OBO)

Recommendation 19: Embassy La Paz should seek authorization from the Bureau of the
Comptroller and Global Financial Services to use the Suspense Deposit Account for laboratory
fee collections and payments. (Action: Embassy La Paz)

Recommendation 20: Embassy La Paz should seek procedural guidance from the Office of
Financial Policy to determine whether the principal cashier can continue functioning as the
consular subcashier. (Action: Embassy La Paz)

Recommendation 21: Embassy La Paz should require departing U.S. direct-hire employees to
use pay.gov for outstanding bill payment. (Action: Embassy La Paz)

Recommendation 22: Embassy La Paz should review and clear rejected payroll transactions.
(Action: Embassy La Paz)

Recommendation 23: The Bureau of Overseas Buildings Operations, in coordination with
Embassy La Paz, should reimburse the Diplomatic and Consular Program fund for any
unauthorized expenses. (Action: OBO, in coordination with Embassy La Paz)

Recommendation 24: Embassy La Paz should require all supervisors to create initial work
requirements statements and to complete performance evaluations within the mandated
timelines, with provisions for appropriate action for noncompliance. (Action: Embassy La Paz)

Recommendation 25: Embassy La Paz, in coordination with the Bureau of Western
Hemisphere Affairs, should transfer the Mission Classification function to the Florida Regional
Center. (Action: Embassy La Paz, in coordination with WHA)

Recommendation 26: Embassy La Paz, in coordination with the Bureau of Human Resources,
should determine whether locally employed staff participation in both the local social security

                                       34
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

health program and a private health plan is feasible and fundable. (Action: Embassy La Paz, in
coordination with DGHR)

Recommendation 27: Embassy La Paz should prepare and submit to the Department updated
hardship differential and consumable allowance reports and the cost-of-living survey report so
that the Department of State can recalculate the appropriate allowances. (Action: Embassy La
Paz)

Recommendation 28: Embassy La Paz should determine in writing whether the use of official
vehicles for community liaison office excursions is an acceptable “other authorized use.”
(Action: Embassy La Paz)

Recommendation 29: Embassy La Paz should secure the receiving areas at all warehouses.
(Action: Embassy La Paz)

Recommendation 30: Embassy La Paz, in coordination with the Bureau of Overseas Buildings
Operations, should identify a warehouse that meets facility and safety standards. (Action:
Embassy La Paz, in coordination with OBO)

Recommendation 31: Embassy La Paz should implement a standard operating procedure for
reviews of purchase card activity and the annual purchase card survey. (Action: Embassy La
Paz)

Recommendation 32: Embassy La Paz should enforce subcashier cash count requirements.
(Action: Embassy La Paz)

Recommendation 33: Embassy La Paz should update completed and accepted safety, health,
and environmental management recommendations in the Management Assessment Results
Tracking System. (Action: Embassy La Paz)

Recommendation 34: Embassy La Paz should comply with all of the safety, health, and
environmental management recommendations in the December 2013 Office of Safety, Health,
and Environmental Management report. (Action: Embassy La Paz)

Recommendation 35: The Bureau of Overseas Buildings Operations, in coordination with
Embassy La Paz, should correct the safety and occupational health risks associated with the
emergency generators. (Action: OBO, in coordination with Embassy La Paz)

Recommendation 36: Embassy La Paz should establish a standard operating procedure,
including a customer feedback mechanism, for managing the information systems center’s
eService requests. (Action: Embassy La Paz)

Recommendation 37: Embassy La Paz, in coordination with the Bureau of Overseas Buildings
Operations, should repair or replace the mission’s centralized uninterruptible power system.
(Action: Embassy La Paz, in coordination with OBO)




                                      35
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 38: Embassy La Paz, in coordination with Bureau of Western Hemisphere
Affairs, should dispose of its excess radio and systems equipment. (Action: Embassy La Paz, in
coordination with WHA)

Recommendation 39: Embassy La Paz, in coordination with the Bureau of Administration,
should establish a diplomatic mail policy for appropriate use of the unclassified diplomatic
pouch and the diplomatic post office. (Action: Embassy La Paz, in coordination with A)

Recommendation 40: Embassy La Paz should require the community liaison office
coordinator to use the official bank account for all funds. (Action: Embassy La Paz)

Recommendation 41: Embassy La Paz should integrate community liaison office crisis
management responsibilities into the emergency management program. (Action: Embassy La
Paz)

Recommendation 42: Embassy La Paz should designate separate individuals to serve on the
school board and to administer any Office of Overseas Schools grants to avoid any conflict of
interest. (Action: Embassy La Paz)




                                      36
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy La Paz should implement a strategy for its modular
community outreach program that matches human and financial resources to its ambitions.

Informal Recommendation 2: Embassy La Paz should require all sections to contribute
relevant information to mission social media and Web sites.

Informal Recommendation 3: Embassy La Paz should describe the photographs on its Web
site photo rollovers.

Informal Recommendation 4: Embassy La Paz should consolidate small grants into a larger
grant to a partner organization.

Informal Recommendation 5: Embassy La Paz should require that the public affairs section
have at least two warranted grants officers.

Informal Recommendation 6: Embassy La Paz should evaluate the fraud prevention workload
to determine the most appropriate staffing model.

Informal Recommendation 7: Embassy La Paz should update and maintain the phone billing,
vouchering, and bill of collection system.

Informal Recommendation 8: Embassy La Paz should provide data entry resources to the
human resources office in order to clear the backlog of position classifications that are approved
but listed as pending in the database.

Informal Recommendation 9: Embassy La Paz should update and reissue the motor vehicle
policy.

Informal Recommendation 10: Embassy La Paz should increase the number of blanket
purchase agreements for house cleaning services.

Informal Recommendation 11: Embassy La Paz should include a traveler’s supervisor as part
of the formal approval pool and routing template in E2 travel.

Informal Recommendation 12: Embassy La Paz should establish a mechanism to advise its
customers of the International Cooperative Administrative Support Services standards they can
expect.

Informal Recommendation 13: Embassy La Paz should establish a regular information service
center meeting schedule to facilitate open communication and clear direction.
                                               37
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy La Paz should implement the previous standard
operating procedure for locating unclassified systems equipment and train their general services
counterparts in its use.




                                       38
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                      Name     Arrival Date
Chargé d’Affaires                                    Aruna Amirthanayagam           10/2011
Acting Deputy Chief of Mission                             Robert A. Frazier        08/2011
Chiefs of Section:
   Acting Management                                         Matthew Miller         09/2012
   Consular                                               Victoria Coffineau        08/2012
  Acting Political/Economic                              Geoffrey Schadrack         07/2011
  Acting Public Affairs                                       Scott E. Smith        06/2011
  Regional Security                                        Thomas Scanlon           08/2012
Other Agencies:
  Department of Defense                            COL Dennis D. Fiemeyer           07/2012

Embassy La Paz has no constituent posts but has consular agencies in Cochabamba and Santa
Cruz.




                                     39
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO              Community liaison office

DCM              Deputy chief of mission

Department       Department of State

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First-and second-tour

ICASS            International Cooperative Administrative Support Services

INL              International Narcotics and Law Enforcement

OIG              Office of Inspector General

USAID            U.S. Agency for International Development

WHA              Bureau of Western Hemisphere Affairs




                            40
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
